OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/EL SALVADOR’S
CASHIERING OPERATIONS
AUDIT REPORT NO. 1-519-05-011-P
AUGUST 17, 2005




SAN SALVADOR, EL SALVADOR
                     Office of Inspector General




    August 17, 2005

    MEMORANDUM

    TO:                USAID/El Salvador Director, Mark Silverman

    FROM:              Acting RIG/San Salvador, Darren Roman “/s/“

    SUBJECT:           Report on Audit of USAID/El Salvador’s Cashiering Operations
                       (Report No. 1-519-05-011-P)

    This memorandum is our final report on the subject audit. In finalizing this report, we
    considered your comments on our draft report and have included your response in
    Appendix II.

    This report does not contain any recommendations for your action.

    Once again, I want to express my appreciation for the cooperation and courtesy
    extended to my staff during the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO, AA 34023
Tel (503) 2228-5457 - Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective................................................................................................................ 2

Audit Finding ................................................................................................................... 3

     Alternate Cashier and Sub-Cashier Were Not Properly Designated........................... 4

Evaluation of Management Comments ......................................................................... 5

Appendix I – Scope and Methodology .......................................................................... 6

Appendix II – Management Comments ......................................................................... 7
SUMMARY OF RESULTS
The Regional Inspector General/San Salvador conducted this audit to determine whether
USAID/El Salvador managed its cashiering operations efficiently, economically, and in
accordance with USAID policies and procedures.

USAID/El Salvador managed its cashiering operations efficiently, economically, and in
accordance with USAID policies and procedures. However, we noted that the Mission did
not properly designate the alternate cashier and the sub-cashier (page 3).        No
recommendation is being made since the Mission rectified this issue.

Management comments are included in the report at Appendix II. USAID/El Salvador
expressed their agreement with the contents of the report.




                                                                                   1
BACKGROUND
USAID/El Salvador is authorized to maintain a revolving imprest fund of $8,000. The
imprest fund is used to make emergency payments and to replenish the petty cash fund
about two times per month. Petty cash is used to pay for miscellaneous goods and
services such as supplies for USAID-leased homes, maid services, and utility bills. The
limit for petty cash payments is $500, unless written approval is received from the
controller’s office.

The primary cashier is responsible for managing the imprest fund while an alternate
cashier has been appointed to replace the primary cashier during absences. The
Mission has also appointed two sub-cashiers, as well as an alternate sub-cashier. Part
of the imprest fund is stored in a savings account at Banco Cuscatlan and part of it is in
the form of a petty cash account. The primary sub-cashier reports to the primary cashier
and manages the petty cash fund of $2,286. The alternate sub-cashier replaces the
primary sub-cashier during absences. From January 1, 2005 to July 20, 2005, not
including interest-related transactions, imprest fund transactions consisted of 21
withdrawals totaling $20,342 and 13 deposits totaling $16,350.

AUDIT OBJECTIVE
As part of its fiscal year 2005 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following question:

•      Did USAID/El Salvador manage its cashiering operations efficiently,
       economically, and in accordance with USAID policies and procedures?

Appendix I contains a discussion of the audit's scope and methodology.




                                                                                        2
AUDIT FINDING
USAID/El Salvador managed its cashiering operations efficiently, economically, and in
accordance with USAID policies and procedures. Through interviews and various audit
tests as discussed in the scope and methodology section, the following cashiering
procedures were verified:

The imprest fund of $8,000 is used to make emergency payments and to replenish the
petty cash fund about two times per month. Petty cash is used to pay for miscellaneous
purchases or to advance funds for these purchases. The sub-cashier periodically
submits replenishment vouchers to the primary cashier, attaching a list of petty cash
payments along with the original receipts and purchase requisitions. Analysis of imprest
fund and petty cash transactions in addition to interviews with the primary cashier and
the sub-cashier confirmed that the process is functioning efficiently as intended by
USAID.

The primary cashier then performs a pre-audit to verify the amounts, names, and
authorizations prior to sending the replenishment voucher to the voucher examiner.
Detailed analysis of five vouchers showed that they were properly prepared and
reviewed. Disbursements are made from the imprest fund by making cash withdrawals
from the savings account at Banco Cuscatlan. While Banco Cuscatlan provides security
for money in the imprest fund, the Mission provides security for the savings account
passbook, undeposited checks, and the petty cash fund.

Approximately 15-30 days after the voucher examiner submits the request for
replenishment, the primary cashier receives a check for the imprest fund. The primary
cashier generally deposits the check into the imprest fund savings account at Banco
Cuscatlan the next business day. The primary cashier records the deposit transaction
into the Windows Automated Cashiering System (WinACS) and gives a copy of the
receipt to accounting. WinACS is used by USAID missions to record cashier operations
such as collections and payments.

The primary cashier is responsible for conducting a surprise count of the petty cash fund
once a month. An unannounced reconciliation of the imprest fund balance is performed
monthly by various accounting staff chosen by the controller. This process includes
reconciling the savings account passbook, reviewing the transactions recorded in
WinACS, and completing a cashiering checklist. Signatures are required to provide
assurance that both the cash count and the reconciliation are taking place monthly. In
addition, we conducted a surprise cash count of the petty cash fund and reconciled the
imprest fund. We found no discrepancies.




                                                                                       3
Alternate Cashier and Sub-Cashier
Were Not Properly Designated
 Summary: USAID/El Salvador did not properly designate the alternate cashier and
 the sub-cashier. Although the Foreign Affairs Handbook (4 FAH-3 H-393.2-5) requires
 maintaining files that include cashier designations, the Mission did not have
 documentation regarding the alternate cashier's official designation between October
 31, 2003 and July 21, 2005. Also, contrary to the Treasury’s Cashiering Manual, the
 Mission appointed a sub-cashier that was given authority to both approve and
 disburse transactions related to petty cash. The Mission did not follow-up on the
 status of the designation of the alternate cashier, and it did not recognize that there
 was inadequate separation of duties regarding the sub-cashier. Both roles are
 important to cashiering operations at the Mission. The alternate cashier assumes the
 primary cashier’s responsibilities during absences and the sub-cashier is responsible
 for disbursing petty cash. A proper designation from the disbursing office provides
 evidence that the alternate cashier has passed the cashiering exam and has the
 necessary abilities to assume the position.

Alternate Cashier Designation - 4 FAH-3 H-393.2-5 states that cashiers must establish
and maintain files that include "copies of all alternate and sub-cashier designations."
The Mission did not have a copy of the alternate cashier's official designation between
October 31, 2003 and July 21, 2005. In order to become a primary cashier or alternate
cashier, requests for designation must be made by the Mission’s financial management
officer to the servicing disbursing office. While the Mission made the request, it did not
receive any notice regarding the permanent designation of the alternate cashier because
it did not make follow-up inquiries. The role of alternate cashier is important because
this individual assumes responsibility for disbursements and advances during absences
of the primary cashier. A proper designation from the disbursing office provides
evidence that the alternate cashier has passed the required cashiering exam and has
the necessary skills to assume the position. Confirmation of acceptance of the alternate
cashier was faxed from the disbursing office to the Mission on July 21, 2005. Because a
copy of this designation is currently kept in the primary cashier’s files, we are not making
a recommendation.

Sub-Cashier Appointment - With respect to the appointment of the sub-cashier, the
Mission approved the Deputy Executive Officer as a sub-cashier on April 16, 2002,
which allowed her to disburse petty cash. There was inadequate separation of duties
because she was also authorized to approve such disbursements. According to Chapter
6 of the Treasury’s Cashiering Manual, an approving official generally should not be
responsible for any activity which may result in an inappropriate influence on another
activity. The Mission intended this appointment to be temporary during a time when the
primary sub-cashier and the alternate sub-cashier were unavailable. In addition, the
Mission did not recognize the inadequate separation of duties. On July 21, 2005, the
Deputy Controller issued a memo to revoke the Deputy Executive Officer's appointment
as sub-cashier. The Mission already has another sub-cashier and an alternate sub-
cashier; therefore, it is not necessary to appoint a second sub-cashier. Because the
Mission has resolved the inadequate separation of duties issue, we are not making a
recommendation.




                                                                                          4
EVALUATION OF
MANAGEMENT COMMENTS
Management comments are included in Appendix II.

USAID/El Salvador agreed with the contents of this audit report.




                                                                   5
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. The purpose of the audit was to
determine whether the cashiering operations were operating efficiently and economically.
The audit covered the period from January 1, 2005 through July 20, 2005.

In planning and performing the audit, we obtained an understanding of and assessed the
Mission’s controls related to its cashiering operations. The management controls identified
were separation of duties, surprise cash counts, monthly imprest fund reconciliations, and
safeguarding of cash and checks.

The imprest fund account consisted of $8,000, which included a petty cash fund of $2,286.
The audit was conducted at the Mission in El Salvador from July 12 through July 26, 2005.

Methodology
To answer the audit objective regarding whether the cashiering operations were being
managed properly, we obtained an understanding of the cashiering requirements as
described in the Department of Treasury’s Manual of Procedures and Instructions for
Cashiers, the Foreign Affairs Handbook, and USAID-published guidance.

We interviewed the cashier and sub-cashier regarding internal controls and current
cashiering procedures. We performed a count of the petty cash and reconciled the imprest
fund balance. Finally, we judgmentally selected five vouchers totaling about $5,000 worth of
transactions to review. These vouchers represented about 25 percent of withdrawal
transactions in terms of number of transactions and dollar amount of transactions that were
made between January 1, 2005 and July 20, 2005. We ensured that these vouchers were
for valid purposes and that they were properly documented.




                                                                                          6
                                                                             APPENDIX II



MANAGEMENT COMMENTS
August 9, 2005

MEMORANDUM

FOR:          RIG/San Salvador, Timothy E. Cox

FROM:         Mission Director, Mark I. Silverman /s/

SUBJECT:      Report on Audit of USAID/El Salvador Cashiering Operations (Report No. 1-
              519-05-0XX-P)


Thank you for subject report. The Controller’s office is in agreement with the audit finding
that USAID/El Salvador is managing its cashier operations efficiently, economically and in
accordance with USAID policies and procedures.

The audit report stated that the Mission had two administrative matters to attend to with
regard to the designation of the alternate cashier and sub-cashier. We appreciate the
thoroughness of your review and your identification of these items for action. As the report
notes, the Mission has corrected both items.

We appreciate and commend the professionalism of your staff during the conduct of this
audit.




                                                                                          7
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
